LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 27, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE NO. 20-443:

UNITED STATES V. DZHOKHAR A. TSARNAEV

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Professor
Michael J.Z. Mannheimer on August 27, 2021, I caused service to be made pursuant
to Rule 29 on the following counsel for the Petitioner and Respondent:
PETITIONER:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

RESPONDENT:
Ginger D. Anders
Munger, Tolles & Olson LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
202-220-1107
ginger.anders@mto.com

This service was effected by depositing three copies of the Brief of Amicus Curiae
Professor Michael J.Z. Mannheimer in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 27th day of August 2021.

